March 26, 2004
Report No. 04-013


FDIC’s Reliance on State Safety and
Soundness Examinations




               AUDIT REPORT


                Audit Report
                                            TABLE OF CONTENTS

BACKGROUND ..................................................................................................................1

RESULTS OF AUDIT.........................................................................................................3

PROCESS FOR RELYING ON STATE SAFETY AND
SOUNDNESS EXAMINATIONS.......................................................................................3

          Completeness of State Examination Reports ........................................................5

          Adequacy of Documentation Maintained Routinely by State
          Examiners to Support Observations Made in Examination Reports .................6

          Ability of State Banking Departments to Achieve Examination
          Objectives..................................................................................................................7

          Adequacy of Working Agreements ........................................................................ 8

          Outdated Working Agreements..............................................................................10

          Workpaper Sharing .................................................................................................10

          Supervisory Actions .................................................................................................10

RECOMMENDATION.......................................................................................................11

CORPORATION COMMENTS ........................................................................................11

OIG EVALUATION............................................................................................................12

APPENDIX I:               OBJECTIVE, SCOPE, AND METHODOLOGY...............................14

APPENDIX II: STATE WORKING AGREEMENTS AND
             CSBS ACCREDITATIONS..................................................................16

APPENDIX III: CORPORATION COMMENTS ..........................................................18

APPENDIX IV: MANAGEMENT RESPONSE TO RECOMMENDATION ..............21

TABLE
     Safety and Soundness Examinations Completed From January 1, 2002
     Through December 31, 2002 ..............................................................................3
Federal Deposit Insurance Corporation                                                                     Office of Audits
801 17th St. NW Washington DC, 20434                                                         Office of Inspector General



DATE:                                  March 26, 2004

MEMORANDUM TO:                         Michael J. Zamorski, Director
                                       Division of Supervision and Consumer Protection

FROM:                                  Russell A. Rau [Electronically produced version; original signed by Russell Rau]
                                       Assistant Inspector General for Audits


SUBJECT:                               FDIC's Reliance on State Safety and Soundness Examinations
                                       (Report Number 2004-013)


This report presents the results of our audit of the Federal Deposit Insurance Corporation’s
(FDIC) process used to rely on safety and soundness examinations performed by state banking
departments. The objective of the audit was to determine whether the process used by the FDIC to
rely on state safety and soundness examinations is adequate. To accomplish our objective, we
reviewed Division of Supervision and Consumer Protection (DSC) policies and procedures for
relying on state examination reports, focusing on the Dallas and New York regional offices. Also,
we reviewed all working agreements entered into between the FDIC and state banking departments
nationwide (see Appendix II). Appendix I of this report discusses our objective, scope, and
methodology in more detail.


BACKGROUND

The FDIC is the primary federal regulator for over 5,300 state-chartered financial institutions
throughout the United States and its territories.1 Collectively, these institutions have assets totaling
over $1.7 trillion.2 Under section 10(d) of the Federal Deposit Insurance Act (FDI Act), all FDIC-
insured institutions are required to undergo on-site examinations by “the appropriate federal banking
agency”3 every 12 or 18 months,4 depending on asset size and bank performance. Bank examinations
are performed to assess the safety and soundness of institutions and to


1
  This includes a small number of banks in Puerto Rico, Guam, American Samoa, the Federated States of Micronesia,
and the Virgin Islands. At the time this report was prepared, there were no FDIC-supervised banks in the District of
Columbia.
2
  The Federal Reserve Board supervises 937 state-chartered institutions that are members of the Federal Reserve System.
These institutions have total assets of approximately $1.9 trillion.
3
  The term “appropriate federal banking agency” is defined at FDI Act section 3(q) (12 U.S.C.§ 1831(q)) in general to
mean the Office of the Comptroller of the Currency, the Board of Governors of the Federal Reserve System, the FDIC,
and the Office of Thrift Supervision.
4
  The FDI Act requires all FDIC-insured banks to be examined on a 12-month cycle. However, the Act allows the
examination cycle to be extended to 18 months for banks with assets of $250 million or less if other factors are met –
primarily that bank performance is satisfactory and the bank is well managed and well capitalized.
identify weaknesses that could lead to failure.5 In addition to federal regulation, all state
chartered banks are subject to examinations by state banking departments. In accordance with
the FDI Act, the FDIC may alternate bank examinations with state banking regulators if it
determines that the state examination is an acceptable substitute. For some states with smaller
banking departments, the FDIC typically performs joint examinations for which one examination
report is signed by both the FDIC and the state banking department.

Under the FDI Act, the Federal Financial Institutions Examination Council (FFIEC)6 is
responsible for issuing guidelines and establishing standards for determining the adequacy of
state examinations. The FFIEC guidelines for relying on state examinations, issued in June
1995, stipulate that the federal banking agencies will “accept and rely on State reports of
examination in all cases in which it is determined that State examinations enable the Federal
banking agencies to effectively carry out their supervisory responsibilities.” Further, the
guidelines note that the following criteria may be considered, in whole or in part, by a federal
banking agency when determining the acceptability of a state report of examination under
section 10(d) of the FDI Act:

    •   The completeness of the state examination report.

    •   The adequacy of documentation maintained routinely by state examiners to support
        observations made in examination reports.

    •   The ability, over time, of a state banking department to achieve examination objectives.

    •   The adequacy of any formal or informal arrangement or working agreement between a
        state banking department and the federal banking agency.




5
  In addition to safety and soundness examinations, banks are subject to other types of examinations such as
information technology, compliance, and trust examinations.
6
  The FFIEC is a congressionally established interagency body empowered to prescribe uniform principles,
standards, and report forms for the federal examination of financial institutions by the Board of Governors of the
Federal Reserve System, the FDIC, the National Credit Union Administration, the Office of the Comptroller of the
Currency, and the Office of Thrift Supervision and to make recommendations to promote uniformity in the
supervision of financial institutions.




                                                         2
RESULTS OF AUDIT

Overall, the FDIC’s process for relying on state safety and soundness examinations is adequate.
However, we found opportunities for improvement pertaining to: (1) the FDIC’s consideration of
the adequacy of documentation maintained by state examiners to support examination reports
and (2) the working agreements between the FDIC and state banking departments. Specifically,
we noted the following:

   •   The FDIC could do more to ensure the quality of state examination reports upon which it
       is relying extensively;

   •   The working agreements are outdated because some of the agreements do not contain the
       most current examination frequency requirements, and none of the agreements address
       the current guidelines implemented by FDIC to improve examination efficiencies at
       institutions with lower risk profiles; and

   •   Some working agreements do not address workpaper sharing or coordination of
       supervisory actions.

To enhance the process the FDIC uses to rely on state safety and soundness examinations, we are
recommending that the Corporation, in cooperation with state banking departments, update the
working agreements to address these conditions.


PROCESS FOR RELYING ON STATE SAFETY AND SOUNDNESS EXAMINATIONS

The FDIC relies extensively on state examinations to extend the amount of time between its own
examinations. Over the past 2 years, approximately 41 percent of all safety and soundness
examinations of FDIC-supervised banks were performed by state banking departments.
Additionally, during the same period, state and FDIC examiners jointly performed 15 percent of
the examinations as noted in the table below.

       Safety and Soundness Examinations Completed From January 1, 2002
       Through December 31, 2003

       Regulator                2002      2003         Total          Percent of Total

       FDIC                     1,883     1,728        3,611                 44

       States                   1,763     1,623        3,386                 41

       Joint (FDIC & State)       579       631        1,210                 15

       Total                    4,225     3,982        8,207                 100

       Source: DSC information systems.



                                               3
We determined that the FDIC’s process for relying on state safety and soundness examinations is
adequate. All state examination reports are routinely reviewed by DSC case managers to
determine whether state-assigned CAMELS ratings are appropriate. In addition, the FDIC has
entered into working agreements with 48 state banking departments that address, among other
things, the scheduling and frequency of examinations, types of examinations to be conducted,
and procedures for coordinating enforcement actions.

According to DSC officials we met with in New York and Dallas, the most significant factors
that enable DSC to rely on state examinations are as follows:

    •   DSC has a long history of working with the state banking departments, which has resulted
        in familiarity with state examiner work products and has helped to achieve consistency in
        state examinations.

    •   DSC has ongoing coordination and communication with the states, including periodic
        meetings between regional office management and the state commissioners and their
        senior staff, and more frequent communication at the case manager and field supervisor
        levels.

    •   Most states use the FDIC’s core training schools and have a commissioning process
        similar to that of the FDIC.

    •   Forty three (86 percent) of 50 state banking departments are accredited by the Conference
        of State Bank Supervisors (CSBS) and are subject to periodic recertification.

    •   Every state examination report is reviewed by a DSC case manager to determine whether
        the CAMELS ratings are appropriate. If concerns are noted, case managers or field
        supervisors discuss the concerns with the state and, if deemed necessary, DSC performs a
        targeted review (visitation) to investigate the matter.

DSC officials also stated that much of the risk related to this process is mitigated by the fact that
generally, only institutions with a CAMELS7 rating of 1 or 2 are examined on an alternating
basis with state banking departments. In addition, working agreements with many states specify
that alternating exams will be performed for institutions with assets under $250 million. As a
result, the FDIC and state banking departments typically perform joint examinations on
institutions rated 3 or lower and on institutions with assets in excess of $250 million. Of the
5,303 state-chartered institutions the FDIC supervised as of December 31, 2003, approximately
4,230 (80 percent) had assets under $250 million.

To determine the adequacy of the FDIC’s process used to rely on state examination reports, we
compared the process with the FFIEC guidelines described earlier. The results of our analysis
follow.


7
  CAMELS (Capital, Asset quality, Management, Earnings, Liquidity, and Sensitivity to market risk) are the rating
factors used by federal regulators in examining the safety and soundness of FDIC-insured institutions. A rating of
“1” through “5” is given, with “1” indicating the least regulatory concern and “5” indicating the greatest concern.


                                                         4
Completeness of State Examination Reports

The FFIEC guidelines note that the state report of examination of a state-chartered, insured
depository institution or a state-chartered branch or agency of a foreign bank should contain
sufficient information to permit a reviewer to make an independent determination on the overall
condition of the institution as well as each component factor and composite rating assigned under
the Uniform Financial Institutions Rating System used for insured depository institutions and
commonly referred to as the “CAMELS” rating system.

Further, the DSC Case Managers Procedures Manual provides the following information about
relying on state examination reports:

       Case managers review examination reports prepared by the State Authorities to ensure
       that all risks to the deposit insurance funds have been identified and that appropriate
       corrective actions are being taken. Prior to the review of a State-prepared examination
       report, case managers should also review relevant information such as the previous
       report, correspondence received since the previous examination, the UBPR [Uniform
       Bank Performance Report], offsite monitoring systems, and all memoranda and
       documentation submitted with the report of examination.

According to DSC officials in Dallas and New York, only state-prepared examination reports
that are of sufficient scope to support the assigned CAMELS rating are accepted by the FDIC.
Case managers review each report to ensure that the assigned CAMELS ratings are appropriate
and to determine the appropriateness of any existing or proposed corrective action. The case
managers discuss with state officials any concerns that might impact a rating to resolve them.
After their review, case managers prepare a Summary Analysis of Examination Report (SAER)
that summarizes the report and documents their acceptance of the state examination report. The
Case Managers Procedures Manual also provides that if the FDIC either does not accept the
state's report of examination or accepts the examination report but disagrees with the assigned
rating, case managers (with the approval of the Regional Director or designee) should discuss the
FDIC's concerns and position with the state authority.

Our review of SAER data for 22 state examinations performed in the New York and Dallas
regions showed that case managers reviewed each report of examination and SAERs addressing
the banks’ financial condition and the CAMELS ratings. Case managers did not question the
CAMELS ratings and did not have any concerns with the ratings assigned in any of the reports.

Our review of examination data indicated that the FDIC accepts virtually all state examination
reports. The FDIC accepted all the 2002 and 2003 state examination reports completed for banks
in the Dallas and New York regions. As DSC officials in New York and Dallas explained, when
a state examination report contains areas of concern, DSC contacts the state banking department
to discuss the areas of concern. If questions remain after discussing the report with state banking
officials, the FDIC has two alternatives – accelerate the next examination or perform a targeted
review (visitation) of the areas of concern. The usual alternative is to perform a visitation. Our
review of visitations performed during 2003 in the New York and Dallas regions indicated that
none of the visitations were due to a questionable state examination rating.



                                                5
Adequacy of Documentation Maintained Routinely by State Examiners to Support
Observations Made in Examination Reports

The FFIEC guidelines note that a federal agency should consider adequacy of documentation
maintained routinely by state examiners to support observations made in examination reports.
However, in that regard, the FDIC does not review state workpapers when determining whether a
state examination report is acceptable and has limited knowledge of states’ quality assurance
programs. According to DSC officials, reviewing state workpapers would be burdensome and
conducting such reviews and knowing about state quality assurance programs is unnecessary.
Nevertheless, lacking these controls, DSC’s assurance that state examinations are reliable is
decreased.

Case managers we interviewed stated that the documentation necessary to determine the quality
of an examination report is contained in the report itself and as a result, reviewing workpapers is
not necessary. In addition, workpapers from state examinations are available and frequently
requested for background purposes in conjunction with the next FDIC examination. Further,
DSC officials stated that they rely on a general knowledge of state documentation practices and
the fact that many states use FDIC work programs for documenting examination findings.
Dallas and New York DSC officials stated that they are able to adequately assess the quality of
examination reports based on the report content and other available information such as Call
Reports.8

We did not find any weaknesses or problems that would warrant detailed reviews of state
workpapers prior to acceptance of state examination reports. However, DSC could be doing
more to ensure that state examination reports are adequately supported. For example, DSC could
determine whether state banking departments have a quality control and assurance process
similar to the one used by DSC. DSC has a number of programs in place that address quality
control and assurance. Principally, DSC performs periodic reviews of regional office and field
office procedures. As part of those reviews, examiner workpapers are reviewed to determine
whether findings in examination reports are adequately documented and supported. These
reviews help to ensure consistency and quality throughout the country.

The General Accounting Office’s (GAO) Standards for Internal Control, and similarly, the
Committee of Sponsoring Organizations of the Treadway Commission’s (referred to as COSO)
Internal Control — Integrated Framework discuss five interrelated components of internal
control. One of these components is “monitoring.” Internal control systems need to be
monitored by assessing the quality of the system's performance over time. This is accomplished
through ongoing monitoring activities, separate evaluations, or a combination of the two.
Ongoing monitoring should include regular management- and supervisory-level activities and
those taken by personnel in performing their duties. The scope and frequency of separate
evaluations will depend primarily on an assessment of risks and the effectiveness of ongoing
monitoring procedures. Such evaluations are typically part of an organization’s quality
assurance program.

8
  Federal regulators require banks to file quarterly Consolidated Reports of Condition or Call Reports, which contain
a balance sheet, income statement, and other detailed financial schedules containing information about the
institution.


                                                         6
The DSC officials we interviewed did not know and did not believe it was necessary to know
whether states have internal review or quality control processes to test the adequacy of
examination report documentation. Rather, the officials rely on the region’s historical
knowledge of the state banking department and the individual review of each state-prepared
examination report. To achieve greater assurance that state banking departments are issuing
quality examination reports, the working agreements should establish the expectation that
internal control monitoring activities, such as quality control programs, are in place and
operating effectively.


Ability of State Banking Departments to Achieve Examination Objectives

The process FDIC uses to assess the ability of state banking departments to achieve examination
objectives is reasonable. The FDIC relies on a number of factors to determine whether state
banking departments are able to achieve examination objectives in accordance with the FFIEC
guidelines, as discussed below.

   •   FDIC Examiner Training. Most states participate in the FDIC’s examiner training
       courses. Although there is no formal agreement between the FDIC and the banking
       departments concerning examiner training, the FDIC makes training available to all state
       banking departments. Attendees are not charged tuition and are provided lodging at the
       FDIC training center without cost. Based on information we obtained from the FDIC’s
       training center, 432 examiners from 38 states participated in various FDIC training
       courses for examiners during 2003.

   •   Examiner Commissioning/Certification Programs. States in the New York and Dallas
       regions have an examiner commissioning process similar to that of the FDIC and Federal
       Reserve. Many states use the FDIC training center, and state examiners progress through
       a commissioning process much like FDIC examiners.

       Most states also participate in an examiner Certification Program sponsored by the
       CSBS. The program is primarily based on a candidate’s educational background and on-
       the-job-training. Participation in this voluntary program is open to all interested parties
       who take CSBS training and/or CSBS-sanctioned training. Certification requires
       appropriate technical skills, on-the-job experience, and attestation by the candidate’s
       supervisor or the respective state bank commissioner. According to the CSBS, more than
       600 examiners in 36 states have received CSBS certification.

   •   CSBS Accreditation. The CSBS is the professional association of state banking
       departments responsible for chartering, regulating, and supervising the nation’s state-
       chartered banks. To become accredited, state banking departments submit to a review of
       critical elements that assures the ability of these departments to discharge their
       responsibilities. This review includes an investigation of department administration and
       finances, personnel policies and practices, training programs, examination policies and
       practices, supervisory procedures, and statutory powers. As a means of monitoring a
       department’s compliance with CSBS performance standards, every accredited banking


                                                7
       department is subject to annual review by CSBS consultants who are experienced
       regulators. As of December 31, 2003, 43 states have CSBS-accredited banking
       departments.

According to FFIEC and FDIC criteria, the FDIC should consider the adequacy of state
budgeting and examiner staffing in determining reliance placed on state examinations.
Generally, the adequacy of state budgets and staffing levels are addressed at various meetings
between the FDIC and state banking departments. DSC officials in Dallas and New York
periodically meet with state banking department officials to discuss examination scheduling.
Budgeting or staffing problems are discussed at these meetings.

Budgeting: To assess state budgeting, we obtained and reviewed budget information for each
state banking department for 2002 and 2003. We found that of the 40 states that had provided
budgeting data to the CSBS for 2003, 32 states were funded at the same or higher level than in
2002. The remaining eight states incurred only negligible budget cuts.

Staffing: Regarding state staffing levels, we reviewed delinquent examinations by states in the
Dallas and New York regions. Examination delinquencies were minimal for these regions.
According to the delinquency report information in the New York Regional Office, 13
delinquencies out of 635 banks were reported as of September 30, 2003. The delinquencies
ranged from 1 month to 7 months. These banks had CAMELS composite ratings of either 1 or 2
with the exception of two banks, which had composite 3 ratings. We noted that the delays were
not attributable to inadequate staffing but rather were planned delays due to pending merger
activity or to banks that were changing computer systems.

Similarly, we reviewed reported delinquent examinations in the Dallas Regional Office as of
September 30, 2003. We determined that only 6 out of 998 banks were listed in the delinquency
report. The delinquencies also ranged from 1 to 7 months, and all of these banks were rated 1
and 2. Again, the delays were primarily attributable to pending merger activity or to banks that
were changing computer systems.


Adequacy of Working Agreements

The FFIEC guidelines state that a federal agency should consider the adequacy of any formal or
informal arrangement or working agreement between a state banking department and the federal
agency. To that end, the FDIC has entered into working agreements with 48 states. The
majority of these agreements stem from a joint resolution entered into by the CSBS and the
FDIC on April 12, 1992. The purpose of the resolution was to develop an examination program
that “achieves the goals of improving supervisory efficiencies while reducing regulatory burdens
on the banking industry.” The joint resolution encouraged the negotiation and formation of
working agreements with the state banking departments. Based on our discussions with officials
from the Dallas and New York regional offices and the CSBS, these agreements are working as
intended and have resulted in improved supervisory efficiencies and reduced regulatory burdens
on the banking industry by ensuring that the FDIC alternates examinations with most state
banking departments.


                                                8
According to the DSC Manual of Examination Policies (Exam Manual), the FDIC intends to
continue these cooperative efforts to the maximum extent possible. These working agreements
are considered informal arrangements that generally address the following areas:

   •   The number of state-chartered insured institutions to be examined on an alternating basis
       by the state banking department and by the FDIC.
   •   The frequency of safety and soundness examinations.
   •   The type of examinations to be conducted (independent, joint, or concurrent) by each
       agency.
   •   The pre-examination procedures to be performed.
   •   The responsibilities of each agency for processing reports of examination.
   •   The responsibilities of each agency for conducting specialty examinations.
   •   The procedures for coordinating informal and formal enforcement actions.
   •   The procedures for reviewing and acting on applications (for example, for the
       establishment of a branch office) from banks.
   •   The procedures for sharing supervisory information.

The working agreements are structured to give both federal and state regulators the flexibility to
conduct an independent examination subject only to notification to the other party. Generally,
only institutions rated 1 or 2 are examined on an alternating basis, allowing for a reasonable
interval between examinations. The Exam Manual notes that the program is designed to be
flexible and to tailor cooperation to the particulars of each state.

The Exam Manual further notes that every effort should be made to coordinate examination
schedules with state authorities to take advantage of state resources, to minimize duplications of
effort, and to lessen business disruptions to the institutions. A representative of the DSC
regional office should meet with representatives from each state banking authority to determine
examination responsibilities for the upcoming year. Responsibilities may be defined in broad
categories by rating, size, and location of institution, or may be defined by specific institution as
deemed appropriate. Such agreements should contain enough flexibility to allow either party to
alter schedules with minimal notice.

Our review of the working agreements identified opportunities for the FDIC to enhance the
existing working agreements. Specifically:

   •   the working agreements are outdated,
   •   12 agreements lacked workpaper sharing provisions, and
   •   11 agreements did not address coordination of supervisory actions.




                                                  9
Outdated Working Agreements

Some working agreements are several years old and are in need of revision or amendment in
light of changes that have occurred since they were originally signed.

The Economic Growth and Regulatory Paperwork Reduction Act (EGRPRA) was passed in
September 1996 and allowed eligible institutions with a CAMELS 2 rating and assets up to
$250 million9 to be examined every 18 months, rather than every 12 months. Two working
agreements entered into before September 1996 do not contain the latest examination frequency
requirements. The working agreements with Nevada and Alaska provide that 2-rated banks with
assets of $100 million or more should be examined every 12 months, even though under current
examination frequency requirements, 2-rated banks may be on an 18-month cycle if their total assets
are less than $250 million. Although the 18-month guidelines are being applied, the FDIC and the
respective state banking departments should amend the working agreement to reflect current
examination frequency requirements.

In addition, many of the working agreements were entered into before the implementation of the
Maximum Efficiency, Risk-focused, Institution Targeted (MERIT) guidelines in 2002. The MERIT
program provides for streamlined examination procedures in well-rated banks with total assets of
$250 million or less and was amended in January 2004 to raise this threshold to $1 billion. None of
the working agreements addressed the MERIT examination program or whether the states are
participating in the program.


Workpaper Sharing

Twelve working agreements do not address workpaper sharing. DSC officials in Dallas and
New York told us that they usually obtained the workpapers from the prior examination as a
starting point and that sharing of workpapers has not been a problem in those regions.

Some agreements contained the following statement, “Each party shall, upon request, make
available to the other party all workpapers, line sheets, and other data used in connection with
any examination conducted by the party.” To help ensure that the FDIC has consistent access to
workpapers nationwide and to promote the sharing of information, the FDIC should strive to
ensure that all working agreements contain similar language.


Supervisory Actions

Eleven working agreements did not address supervisory actions. Supervisory actions are often
necessary when a bank has weaknesses which, if not corrected, could become worse. Many
agreements that did address supervisory actions contained the following provision:



9
 Specifically, section 2221 of EGRPRA (Pub L. No. 104-288) increased the asset amount to $250 million from
$175 million that had been established by previous legislation.


                                                      10
       In any instance where formal supervisory action is deemed appropriate, the initiating
       party will inform the other party of the contemplated action. Whenever possible, and if
       both parties agree, supervisory actions will be taken on a joint basis. However, nothing
       in this agreement shall prohibit either the Department or the FDIC from implementing a
       supervisory action unilaterally.

To help enhance the process the FDIC uses to rely on state safety and soundness examinations
and to promote mutual understanding of current requirements, the FDIC should strive to revise
and update the working agreements.


RECOMMENDATION

We recommend that the Director, DSC, in cooperation with state banking departments, amend
working agreements, based on a model agreement, that address, among other things:

       •   current examination frequency requirements,
       •   workpaper sharing,
       •   coordinating examination programs and supervisory actions, and
       •   encouraging the mutual support of efforts to maintain quality control programs.

CORPORATION COMMENTS

On March 18, 2004, the DSC Director provided a written response to the draft report. The
response is presented in Appendix III to this report. DSC generally concurred with the report’s
findings and agreed to include in a model agreement, language that endorses the general
principles of our recommendation for consideration by its regional offices and state banking
departments. A summary of the Director’s comments on each aspect of our recommendation
follows.

Examination Frequency

The Director, DSC, noted that only two agreements do not include current examination
frequency requirements and that the region has been informed of the need to amend those
agreements.

Workpaper Sharing

The Director, DSC, stated that the 12 agreements without workpaper provisions have been
identified and those regions have been informed of the need to amend those agreements with the
states’ cooperation.




                                                11
Coordinating Examination Programs and Supervisory Actions

The Director, DSC, responded that the working agreements have never addressed the issue of
examination scope or FDIC programs designed to achieve examination efficiencies. The
Director further noted that the inclusion of examination procedures and program guidelines such
as MERIT in the working agreements would require continual revision of the agreements. DSC
believes that the more appropriate approach is through existing cooperative efforts with the
CSBS, joint examination and training efforts, and other regulator meetings with the states.
However, DSC agreed to endorse the general principle of using common examination programs
in the model agreement.

With respect to supervisory actions, the Director stated that the 11 agreements without a
provision that addresses coordination have been identified. The regions were aware of these
exceptions, and the agreements were written in that manner at the request of state banking
departments.

Quality Control

DSC agrees it is important for the division to do all it can to ensure that state banking
departments have a sound quality control and assurance program. DSC believes that adequate
programs are already in place to validate the quality of state examination reports and supporting
workpapers. Specifically, the Director stated that the report should have more fully considered
the role that the CSBS Accreditation Program plays in this area and does not recognize that
workpapers from state examiners are reviewed in conjunction with conducting joint
examinations with the state banking departments. Nevertheless, DSC agreed to include language
that endorses the general principle of quality control in the model agreement.


OIG EVALUATION

DSC’s planned corrective action adequately addresses the intent of our recommendation.
Accordingly, the recommendation is resolved but will remain undispositioned and open until we
have determined that the agreed-to corrective action has been implemented and is effective.

With respect to DSC concerns about including MERIT procedures in the working agreements,
the intent of the report was not to specifically focus on the MERIT program. Instead, given
MERIT’s significance to DSC’s overall supervisory strategy, we used that program to illustrate
how the working agreements could be enhanced by a provision for coordinating examination
programs, maintaining a consistent supervisory approach, and possibly easing regulatory burden
for institutions.

In regard to coordinating supervisory actions, we recognize that some states may prefer not to
issue joint supervisory actions. However, to promote efficiency and consistency nationwide, we
contend that coordination is still needed even when actions are not issued jointly. Accordingly,
we believe it would be beneficial to both the FDIC and the 11 state banking departments to
include language on supervisory actions similar to all of the other working agreements.



                                               12
Finally, the Director expressed concern with our consideration of the CSBS role in quality
control of state banking department examinations and working papers. The report addresses the
CSBS accreditation process and recognizes its importance in helping state banking departments
discharge their supervisory responsibilities. Based on conversations we had with CSBS officials,
however, we were not convinced that the accreditation program in and of itself satisfactorily
addresses the FFIEC criteria that a federal agency should consider the adequacy of
documentation maintained routinely by state examiners to support observations made in
examination reports. CSBS accreditation is an important external quality assurance review.
However, the accreditation compliments but does not replace internal quality control activities.
The FDIC and state banking departments should use the working agreements to demonstrate
their commitment to ensuring adequate quality controls were in place and operating as intended.
Further, with regard to FDIC examiners reviewing state examiner working papers during joint
examinations, our experiences in other audits have shown that state workpapers are sometimes
reviewed for clarity and understanding but are not formally reviewed for quality control
purposes. As previously stated, we do not consider it necessary for the FDIC to routinely review
state examination working papers from a quality control perspective where there is appropriate
attention to quality control activities.




                                              13
                                                                                   APPENDIX I



                       OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of the audit was to determine whether the process used by the FDIC to rely on
state safety and soundness examinations is adequate. The audit field work was performed at the
DSC regional offices in Dallas, Texas and New York, New York, as we believed these offices
would be representative of DSC policies nationwide. We performed our audit from June 2003
through December 31, 2003 in accordance with generally accepted government auditing
standards. To accomplish the audit objectives, we:

   •   obtained and reviewed all working agreements between the FDIC and state banking
       departments,
   •   interviewed CSBS officials,
   •   analyzed a sample of SAER reports and comments applicable to state examinations,
   •   reviewed various bank examination data from DSC’s Virtual Supervisory Information on
       the Net (VISION) system,
   •   reviewed DSC policies pertaining to accepting state examinations,
   •   reviewed FFIEC guidelines for relying on state examination reports,
   •   interviewed officials in DSC regional offices regarding state examinations,
   •   reviewed examination delinquency reports; and
   •   reviewed various state banking department budgets and staffing levels for 2002 and 2003.



Government Performance and Results Act, Reliance on Computer-Generated Data, Fraud
and Illegal Acts, and Management Controls

The limited nature of the audit objective did not require reviewing related performance measures
under the Government Performance and Results Act or determining the reliability of computer-
processed data obtained from the FDIC’s computerized systems. Not performing assessments of
these areas did not affect the results of our audit. Our audit program did include steps for
providing reasonable assurance of detecting fraud or illegal acts. Additionally, we gained an
understanding of relevant control activities by examining DSC-applicable policies and
procedures as presented in the DSC Manual of Examination Policies and Regional Directors
Memoranda.



Pertinent Laws and Regulations

Under section 10(d) of the FDI Act, all FDIC-insured institutions are required to undergo on-site
examinations by a federal regulator every 12 or 18 months, depending on asset size and bank
performance. Under the Act, federal regulators may alternate bank examinations with state
banking regulators if they determine that the state examination is an acceptable substitute. Our
testing of FDIC’s compliance with laws and regulations was limited to the aforementioned parts



                                               14
                                                                                    APPENDIX I

of section 10(d) of the FDI Act. With the exception of a few delinquent examinations, we did
not find any instances in which the FDIC was not in compliance with pertinent laws and
regulations.



Summary of Prior Audit Coverage

The Office of Inspector General (OIG) completed one previous review of FDIC’s reliance on
state examinations. The audit report entitled, Audit of Division of Supervision Reliance on State
Examinations (Audit Report No. 99-032), was issued August 4, 1999. The OIG found that
while the process for relying on state examinations was adequate, a number of working
agreements were outdated and that the FDIC had not entered into a working agreement with
several states. We made two recommendations to address those areas. Our current audit
identified similar concerns over working agreements that needed to be updated.




                                               15
                                                                   APPENDIX II


        STATE WORKING AGREEMENTS AND CSBS ACCREDITATIONS


                        Date of        Workpapers
                        Working         Sharing       CSBS              Date
          State        Agreement       Provisions   Accredited        Accredited
Atlanta Region
Alabama              April 2003            Yes         Yes       December 23,1996
Florida              December 1999         Yes         Yes       October 16, 1986
Georgia              April 2000            Yes         Yes       December 1, 1992
North Carolina       April 2003            Yes         Yes       October 1, 1997
South Carolina       April 2003            Yes         No
Virginia             June 2003             Yes         Yes       July 30, 1999
West Virginia        September 2001        Yes         Yes       August 21, 1996
Chicago Region
Illinois             November 1999         Yes         Yes       December 4, 1984
Indiana              July 1998             No          Yes       March 14, 1988
Michigan             August 1999           Yes         Yes       April 28, 1986
Ohio                 August 1999           Yes         Yes       October 24, 1989
Wisconsin            August 1999           Yes         Yes       August 8, 1988
Kentucky             March 1998            Yes         Yes       November 2, 1992
Dallas Region
Colorado             May 2003              Yes         Yes       January 4, 1991
New Mexico           September 2001        Yes         Yes       May 3, 1996
Oklahoma             August 2001           Yes         Yes       March 23, 1994
Texas                May 2002              Yes         Yes       October 27, 1993
Memphis Area
Arkansas             October 2003          Yes         Yes       August 8, 1988
Louisiana            April 1997            Yes         Yes       January 14, 1989
Mississippi          November 2002         Yes         Yes       June 6, 1996
Tennessee            April 2001            Yes         Yes       April 27, 1987
Kansas City Region
Iowa                 April 2002            Yes         Yes       June 11, 1985
Kansas               January 2004          Yes         Yes       May 26, 1995
Minnesota            June 1997             No          Yes       November 28, 1990
Missouri             June 2002             Yes         Yes       April 3, 1987
Nebraska             September 1999        Yes         Yes       March 18, 1993
North Dakota         September 1999        Yes         Yes       December 16, 1992
South Dakota         January 2000          Yes         No
New York Region
Delaware             February 1999         Yes         Yes       December 23, 1996
Maryland             November 2002         Yes         Yes       July 13, 1992
New Jersey           November 1999         Yes         Yes       October 24, 1986
New York             July 1996             Yes         Yes       October 15, 1985
Pennsylvania         July 1997             No          Yes       February 28, 1986




                                      16
                                                                     APPENDIX II



                          Date of        Workpapers
                          Working         Sharing       CSBS              Date
           State         Agreement       Provisions   Accredited        Accredited
Boston Area
Connecticut            February 2000         Yes         Yes       April 28, 1986
Maine                  January 2000          Yes         Yes       October 21, 1996
Massachusetts          January 2000          Yes         Yes       December 6, 1994
New Hampshire          February 2000         Yes         No
Rhode Island           N/A                   N/A         No
Vermont                N/A                   N/A         Yes       December 8, 1995
San Francisco Region
Alaska                 May 1995              No          No
Arizona                September 2003        No          Yes       July 5, 1996
California             February 1997         No          Yes       April 6, 1990
Hawaii                 August 2003           No          Yes       March 30, 1990
Idaho                  August 2003           Yes         Yes       January 8, 1990
Montana                February 2002         No          No
Nevada                 June 1995             No          No
Oregon                 August 2003           No          Yes       October 22, 1992
Utah                   November 2003         No          Yes       October 27, 1994
Washington             January 2003          Yes         Yes       September 17, 1990
Wyoming                August 2003           No          Yes       July 20, 1992




                                        17
                       Appendix III



CORPORATION COMMENTS
                       APPENDIX III
CORPORATION COMMENTS




         19
                       APPENDIX III
CORPORATION COMMENTS




         20
                                                                                                                                         APPENDIX IV

                                          MANAGEMENT RESPONSE TO RECOMMENDATION

This table presents the management responses that have been made on recommendations in our report and the status of recommendations
as of the date of report issuance. The information in this table is based on management’s written response to our report (and subsequent
communication with management representatives.)

                                 Corrective Action:       Expected           Monetary Resolved: a                       Dispositionedb       Open or
                                 Taken or                 Completion Date    Benefits Yes or No                         Yes or No            Closedc
    Recommendation               Planned/Status
    Amend working                DSC will provide         September 30, 2004 N/A      Yes                               No                   Open
    agreements, based on a       regions with a model
    model agreement, to          agreement that
    address among other          addresses all of the
    things: current              issues specified in the
    examination frequency        recommendation. DSC
    requirements, workpaper      will also discuss the
    sharing, coordinating        report’s contents at the
    examination programs         next management
    and supervisory actions,     meeting with the
    and encouraging mutual       regional directors.
    support of efforts to
    maintain quality control
    programs




a
    Resolved –   (1) Management concurs with the recommendation and the planned corrective action is consistent with the recommendation.
                 (2) Management does not concur with the recommendation but planned alternative action is acceptable to the OIG.
                 (3) Management agrees to the OIG monetary benefits or a different amount, or no ($0) amount. Monetary benefits are considered resolved as
                 long as management provides an amount.
b
  Dispositioned – The agreed-upon corrective action must be implemented, determined to be effective, and the actual amounts of monetary benefits achieved
through implementation identified. The OIG is responsible for determining whether the documentation provided by management is adequate to disposition the
recommendation.
c
  Once the OIG dispositions the recommendation, it can then be closed.



                                                                            21
